CERTIFICATE OF SERVICE
No. TBD
Robert H. Newell
Petitioner,
v.
Merrick B. Garland, United States Attorney General; Tracy Wilkinson, Acting United States
Attorney for the Central District of California; and the United States of America
Respondents.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Robert
H. Newell Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by Fedex 2-Day, prepaid for deliveryto the following address.
Elizabeth Prelogar
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Ave.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj .gov
Counsel for Respondents

Lucas'DeDeus

June 24, 2021
SCP Tracking: Newell-2414 Terrace Dr-Cover White

A

